CERTIFICATE 0 F SERVI CE
No.
In the Supreme Court of the United States
RICHARD BERNHOLZ,
Petitioner
v.

UNITED STATES INTERNAL REVENUE SERVICE,
Respondent
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Second Circuit

I certify that the Petition of Petitioner has been served on Respondent's
counsel by mailing the same via U.S. Mails, postage prepaid: Ivan C. Dale, Esq.,
Department of Justice, Tax Division, PO Box 502, Washington, DC 20044.
Respectfully submitted,

Isl Michael B. Clapp, Esq .
MICHAEL BRADLEY CLAPP

Isl Paul S. Volk, Esq.
PAULS. VOLK

121 Munger Street

Blodgett Watts & Volk, P.C
72 Hungerford Terrace
Burlington, VT 05402
802)862-8919
pvolk@bwvlaw.com
Counsel ofRecord

Middlebury, VT 05753
(802)343 -1042
clappla w@aol.com

Dated: August 13, 2020

